Matthew J. Kita
attorney and counselor at law
licensed in texas and california

CERTIFICATE OF COMPLIANCE
No. 20-585
GREG VASQUEZ
ROBERT SANCHEZ
Petitioners
v.
MARITZA AMADOR, VANESSA FLORES;
MARISELA FLORES; CARMEN FLORES;
ROGELIO FLORES
Respondents
As required by Supreme Court Rule 33.l(h), I certify that the Brief in
Opposition to the Petition for Writ of Certiorari contains 3,881 words,
excluding the parts of the Petition that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and
correct. This certificate is executed on February 3, 2021.

Respectfully submitted,

Matthew J. Kita
Counsel of Record
3110 Webb Avenue, Suite 150
Dallas, Texas 75205
(214) 699-1863
matt@mattkita.com
Counsel for Respondent

214.699.1863

webb avenue
suite 150
dallas, texas 75205
3110

matt@mattkita.com

